<html>
<title> - [H.A.S.C. No. 115-53]COMBAT AVIATION MODERNIZATION PROGRAMS AND THE FISCAL YEAR 2018 BUDGET REQUEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 115-53]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                     COMBAT AVIATION MODERNIZATION

            PROGRAMS AND THE FISCAL YEAR 2018 BUDGET REQUEST

                               __________

                              HEARING HELD
                              JUNE 7, 2017


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-738                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f180f103f1c0a0c0b171a130f511c101251">[email&#160;protected]</a> 
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     (Vacancy)
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bunch, Lt Gen Arnold W., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition; and Lt 
  Gen Jerry D. Harris, USAF, Deputy Chief of Staff for Plans, 
  Programs, and Requirements.....................................     6
Grosklags, VADM Paul A., USN, Commander, Naval Air Systems 
  Command, U.S. Navy; LtGen Jon M. Davis, USMC, Deputy Commandant 
  of the Marine Corps for Aviation, U.S. Marine Corps; and RADM 
  DeWolfe H. ``Chip'' Miller III, USN, Director of the Air 
  Warfare Division, U.S. Navy....................................     4

                                APPENDIX

Prepared Statements:

    Bunch, Lt Gen Arnold W., joint with Lt Gen Jerry D. Harris...    87
    Grosklags, VADM Paul A., joint with LtGen Jon M. Davis and 
      RADM DeWolfe H. ``Chip'' Miller III........................    28
    Turner, Hon. Michael R.......................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................   115
    Ms. McSally..................................................   116

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................   124
    Mr. Gaetz....................................................   123
    Ms. Tsongas..................................................   123

    Mr. Turner...................................................   121

 
COMBAT AVIATION MODERNIZATION PROGRAMS AND THE FISCAL YEAR 2018 BUDGET 
                                REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Wednesday, June 7, 2017.
    The subcommittee met, pursuant to call, at 3:33 p.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order.
    The subcommittee meets today to review the Navy, Marine 
Corps, and Air Force aviation investment and modernization 
budget request for fiscal year [FY] 2018.
    I would like to welcome our distinguished panel of 
witnesses. We have Vice Admiral Paul Grosklags, Commander of 
the Navy Air Systems Command; Rear Admiral ``Chip'' Miller, 
Director of the Navy's Air Warfare Division; Lieutenant General 
Arnold Bunch, Military Deputy in the Office of the Assistant 
Secretary of the Air Force for Acquisition. We have Lieutenant 
General Jerry Harris, Air Force Deputy Chief of Staff for 
Plans, Programs, and Requirements. And we have Lieutenant 
General Jon Davis, Deputy Commandant of the Marine Corps for 
Aviation.
    I understand this will be General Davis' final appearance 
before the committee because he will be retiring next month. 
General Davis, we want to thank you for your 37 years of 
distinguished service to the Marine Corps and our Nation. And 
we wish you the best in your future plans. And I want you to 
know that I know everyone on this committee has greatly 
appreciated the assistance that you have provided us because 
you give us not only just a perspective on what we should be 
doing, but also your work has been incredibly inspirational. So 
thank you for your work.
    General Davis. My honor, sir. Thanks.
    Mr. Turner. I also would like to thank all of you for your 
service and look forward to your testimony today.
    As I have stated at previous hearings, I support the 
President's commitment to rebuilding the capacity and 
capability of our military. However, I am concerned that the 
current budget request of merely $603 billion for the 
Department of Defense will not achieve that goal in the 
timeline desired and needed.
    For example, at Congress' request, the military services 
submitted their unfunded requirements list to the congressional 
defense committees last week. The total was over $30 billion. A 
significant portion of these requests were related to 
modernization needs. Of particular note, the Air Force included 
an additional 14 F-35A aircraft, and the Navy and Marine Corps 
included 20 additional aircraft comprised of F-18 Super 
Hornets, F-35Bs, and F-35Cs.
    I suspect that all the witnesses today will support the 
President's budget request. However, members of this 
subcommittee need to better understand what additional 
capabilities are required above the President's request and why 
it is an imperative we work to fully resource these unfunded 
requirements to accelerate the restoration of full-spectrum 
readiness.
    I continue to support Chairman Thornberry and Chairman 
McCain, who believe that a $640 billion budget in fiscal year 
2018 is required to build the capability needed for today's 
complex and dangerous world.
    The military services' unfunded requirements also validate 
a higher topline funding level. Today, the subcommittee will 
review a broad portfolio of tactical aviation modernization 
programs and associated acquisition strategies. The witnesses 
have been asked to identify their top five modernization 
requirements and briefly summarize how the budget request 
addresses them.
    The aviation budgets for the Navy, Marine Corps, and Air 
Force appear to be placing a higher priority on current 
readiness, and rightly so. Earlier this year, we heard the Vice 
Chief of Naval Operations report that over 60 percent--I am 
going to say that over again--60 percent of F-18s are out of 
service due to backlogs in depot repair. The budget fully funds 
depot capacity.
    This budget also robustly funds preferred aviation 
munitions, such as the Joint Direct Attack Munition, Small 
Diameter Bombs, and Hellfire missiles--a much needed increase, 
especially for the ongoing combat operations in the U.S. 
Central Command's [CENTCOM's] areas of responsibilities. 
However, the Navy continues to absorb the significant risk in 
its management of the strike fighter inventory. The Navy is 
challenged to replace legacy F-18C, D, and AV-8B aircraft that 
have reached the end of their life service before they can be 
replaced by new F-35s or new F-18 Super Hornet aircraft. Each 
year, the Navy flies about 180,000 flying hours in its F-18 
fleet, which equates to the entire fleet expending 24 to 36 
aircraft worth of service life per year.
    The Navy's fiscal year 2018 budget request includes a 
procurement of 38 F-18 Super Hornets and F-35s, so the Navy is 
only slightly above its annual expenditure of fighter aircraft 
life. There are two less Navy F-35Cs in the budget request than 
were projected last year. And the Future Years Defense Program 
for fiscal year 2018 reduces the planned F-35C procurements by 
seven aircraft.
    The Air Force currently has a fleet of 55 combat-coded 
fighter squadrons, significantly smaller than the Desert Storm 
force of 134 fighter squadrons. We have heard testimony from 
senior Air Force leaders that with the current demand for 
rotational fighter presence, 55 combat fighter squadrons do not 
allow sufficient time to train pilots, maintain aircraft, which 
contributes to degraded full spectrum readiness. The 55 combat 
squadron level meets the minimum requirement set forth in the 
current defense planning guidance, but the Air Force considers 
it to be high risk in many challenging scenarios.
    The Air Force has stated that in order to meet current 
steady-state demands and maintain readiness to meet surge 
requirements, the Air Force needs to grow at least 60 combat 
fighter squadrons, invest in munitions, modernize existing 
platforms, and increase participation in advanced training 
programs.
    The fiscal year 2018 budget request includes 45 F-35As for 
the Air Force, and that number is 2 more than planned last year 
for this budget request. However, I would also note that 2 
years ago, the Air Force planned to procure 60 F-35As in the 
fiscal year 2018.
    In testimony before this committee last July, Air Force 
General ``Hawk'' Carlisle, the former commander of Air Combat 
Command, testified that to address the Air Force's capability 
capacity shortfalls the desired production rate is 60 F-35s per 
year, not the 46 that this request includes.
    The committee is also pleased to see the Air Force reverse 
its decision to retire the U-2 in 2019 and provide funding to 
maintain both the U-2 and Global Hawk platforms to meet high-
altitude airborne intelligence, surveillance, and 
reconnaissance [ISR] demands for our combat commanders. 
However, all of the services represented today need to take a 
hard look at their investment strategies and airborne ISR 
capacity, because a significant portion of combat commanders' 
requirements are still unmet in many of the intelligence 
disciplines.
    As the committee continues its deliberations on the fiscal 
year 2018 budget request, we will look for opportunities to 
further address the services' most promising and pressing 
modernization requirements.
    As you know, that is an incredibly depressing list of gaps 
that is going to be the focus of our hearing today. It is 
unusual, actually, for this long of an opening statement, but I 
think each of those elements were important to set the stage 
for the testimony that we are going to be receiving today, 
because we are not just focused on what you are going to 
accomplish and what you have been requesting, but the gap of 
what needs to be there and how it has been falling short and 
what we are losing as a result of that continuing gap.
    And with that, I would like to turn to my good friend and 
colleague from Massachusetts, Niki Tsongas.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 25.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman. And good afternoon to 
our witnesses. Thank you for your service. And especially 
General Davis, we wish you well in your retirement. It has been 
a pleasure to work with you.
    The budget request for Air Force, Navy, and Marine Corps 
programs in our jurisdiction reflects a more stable funding 
path for major aviation programs and seeks to address 
modernization upgrades needed by all three services. This 
committee has rightfully focused on areas where improvements 
are needed in the acquisition process, but there are a number 
of successes that don't get much attention, but promise to 
deliver greatly improved capabilities in some key areas in the 
next 2 years for the services. Our witnesses today and the 
thousands of people that work in acquisition for the services 
should be commended for that.
    That being said, there are areas of concern with some of 
the programs being reviewed by the subcommittee today. And it 
is our responsibility to make sure our service members get the 
best possible equipment and to see that taxpayer funds are 
wisely spent.
    Today's hearing will have to cover a lot of ground, but I 
wanted to make two quick points prior to our hearing--to 
hearing from our witnesses. The first is my continued concern 
with the rate of physiological events plaguing the Navy's 
aviation community in the
F/A-18 Hornet and T-45 trainer aircraft fleet. While I know the 
Navy is working hard and looking at lots of options in this 
area, the rates remain at a very high rate in some cases. And 
in the case of the T-45C, the Navy hasn't been able to conduct 
student pilot flights since early April, a more than 2-month 
pause in critical training for our future aviators.
    I look forward to getting an update on the issue and to 
hearing about how the several efforts underway are addressing 
the problem. I also have some questions about areas for Air 
Force and Navy collaboration to solve these issues.
    My second concern is with the significant cost growth 
reflected in the budget request for several important programs 
for each of the services. In each case, there are significant 
increases compared to last year's projections for fiscal year 
2018. The programs in question include: one, the Air Force's 
next-generation [next-gen] air dominance program, which shows a 
significant increase from $21 million in fiscal year 2017 to 
$294 million in fiscal year 2018. Second, the Navy's Next 
Generation Jammer program, which shows an $89 million increase 
in fiscal year 2018, the F-35 program that shows a $500 million 
increase in fiscal year 2018 to finish development, and the CH-
53K program that shows a $107 million increase in fiscal year 
2018.
    All of these are very important programs, so I would like 
to fully understand the reasons for the proposed growth as part 
of the subcommittee's review of the fiscal year 2018 budget.
    And with that, I yield back.
    Mr. Turner. Without objection, all witnesses' prepared 
statements will be included in the hearing record. Our 
presenters will be Admiral Grosklags and General Bunch. We will 
begin with the Admiral.

STATEMENT OF VADM PAUL A. GROSKLAGS, USN, COMMANDER, NAVAL AIR 
SYSTEMS COMMAND; LTGEN JON M. DAVIS, USMC, DEPUTY COMMANDANT OF 
  THE MARINE CORPS FOR AVIATION; AND RADM DeWOLFE H. ``CHIP'' 
     MILLER III, USN, DIRECTOR OF THE AIR WARFARE DIVISION

    Admiral Grosklags. Thank you, sir. Chairman Turner, Ranking 
Member Tsongas, and distinguished members of the subcommittee. 
I appreciate the opportunity to appear before you today to talk 
about naval aviation programs.
    Our 2018 President's budget submission is governed by 
Secretary of Defense's priorities to improve warfighting 
readiness by addressing pressing programmatic shortfalls that 
have accrued from 15 years of wartime operational tempo and 
chronic underfunding of many of our readiness accounts.
    The budget request is designed to maintain the operational 
effectiveness of our current force while also building a bridge 
to growing the future force starting in 2019. Current readiness 
of our naval aviation forces is clearly less than it needs to 
be. The fiscal year 2017 enacted budget provided much needed 
increases in funding for many of our naval aviation readiness 
accounts. Our fiscal year 2018 request builds on 2017 with a 
request for funding of these readiness accounts that both in 
real terms and as a percent of the requirement is at a level 
not seen in 8 to 10 years.
    Support for these accounts is the most important single 
lever in returning our fleet to the required levels of 
readiness. Close behind that is the need to continue, and in 
some cases accelerate, the procurement of new aircraft. This 
includes F-35s, as you mentioned, Mr. Chairman, for both Marine 
Corps and the Navy, and additional F-18 Super Hornets for the 
Navy. As we continue to struggle with extending the service 
life and maintaining the readiness of our legacy F-18s, both 
services are working to accelerate the transition to other 
aircraft.
    In addition to the F-35B and C models, critical priorities 
for the Marine Corps include initiation and ramp-up of the CH-
53K production, completing procurement of the KC-130J, 
execution of the V-22 common configuration readiness and 
modernization initiative, and initiation of the MAGTF's [Marine 
air-ground task force] expeditionary unmanned air system. Each 
of these priorities is a key contributor to the Marine Corps' 
capability and capacity to meet both OPLANs [operation plans] 
and combatant commander requirements.
    On the Navy side of the house, in addition to the F-18s and 
F-35s that I mentioned, pushing forward with the MQ-4 Triton 
procurement, awarding a development contract for the MQ-25 
carrier-based unmanned tanker aircraft, continuing on-track 
development of the Next Gen Jammer system, and fielding of the 
long range anti-ship missile on both the B-1 and the F-18 Super 
Hornet are our priorities.
    We will continue to leverage every tool and opportunity 
available to drive down the cost of each of these programs. 
This subcommittee has been very supportive of our efforts in 
the past, and we are again asking for your support for 
initiatives such as the F-35 block buy and a third V-22 
multiyear program supporting the final 7 years of planned 
Marine, Navy, and Air Force procurements.
    Separate from the procurement focus, as mentioned by 
Ranking Member Tsongas, this subcommittee is very aware of the 
continued challenges we face in resolving the high rate of 
physiological episodes that we have seen in our T-45s and our 
F-18s. It bears repeating that this is naval aviation's number 
one safety issue, and we continue to approach root cause 
assessment and near-term mitigation steps from an unconstrained 
resources perspective.
    As we continue to assess potential root causes, in 
parallel, we are focused on implementation of aircrew alerting 
and protection systems so that we can resume student training 
in our T-45s and continue mitigation of risk for our F-18 air 
crew.
    Naval aviation's priorities are directly tied to increasing 
worldwide security challenges. Our ability to achieve the 
improved readiness, the increased capacity, and the enhanced 
capabilities required to deal with these challenges remains 
constrained by the overall resourcing constraints imposed by 
the Budget Control Act and the often inefficient use of 
resources driven by seemingly chronic extended execution under 
continuing resolutions [CRs].
    You have our commitment to making the best possible use of 
the resources we are given. We ask this subcommittee's 
continued support in working to eliminate these barriers. We 
want to thank you again for your continued support of our 
sailors and marines, and we look forward to addressing your 
questions.
    [The joint prepared statement of Admiral Grosklags, General 
Davis, and Admiral Miller can be found in the Appendix on page 
28.]
    Mr. Turner. General Bunch.

  STATEMENT OF LT GEN ARNOLD W. BUNCH, USAF, MILITARY DEPUTY, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
ACQUISITION; AND LT GEN JERRY D. HARRIS, USAF, DEPUTY CHIEF OF 
          STAFF FOR PLANS, PROGRAMS, AND REQUIREMENTS

    General Bunch. Thank you, Chairman Turner, Ranking Member 
Tsongas, and other members of the subcommittee, for the 
opportunity to appear before you today. We appreciate your 
service and the support this subcommittee provides the United 
States Air Force, our airmen, and their families.
    For the past 70 years, from the evolution of the jet 
aircraft to the advent of the ICBM [intercontinental ballistic 
missile], satellite-guided bombs, remotely piloted aircraft, 
and many other accomplishments, your Air Force has been 
breaking barriers as a member of the finest joint warfighting 
team on the planet. For the last 27 of those 70 years, we have 
been in continuous combat. During this period, we employed air 
power in ways never envisioned and delivered unparalleled 
support to the combatant commanders, our sister services, 
allies, and coalition partners.
    While providing this unmatched operational capability, 
budget realities have taken a toll on our ability to provide 
for the future joint force. These many years of combat have 
taught us much, most importantly, that the demand for air power 
has grown in every mission, in every domain, and in every 
location. The world has watched your Air Force operate and the 
world has adapted. Our adversaries have adapted their 
capabilities to strike at areas we depend on to execute our 
missions, adapted their defenses to reduce our ability to 
employ our forces, and adopted many of our tactics and 
techniques, all of which reduce our ability to employ our 
forces.
    Today, we face a world of ever-improving adversaries, 
increasing threats, and a persistent war against violent 
extremism. This changing environment of increasing demands and 
commitments, along with a limited pool of resources to address 
issues, and the threat of the Budget Control Act, make our 
mission of providing unmatched Global Vigilance, Global Reach, 
and Global Power ever more challenging.
    The result of these changes is a marked decrease in our 
technological advantage. Where I once would have said we had a 
decided advantage on all fronts, today I can say we retain our 
lead in some technological areas. However, in other areas, our 
potential adversaries are nipping at our heels or are shoulder 
to shoulder with us.
    To address the shrinking technology gap, we must continue 
to invest in science and technology and modernize our forces to 
ensure our most valued treasure, America's sons and daughters, 
has a decisive advantage when we send them into harm's way. We 
do not want a fair fight.
    The FY 2018 budget we submitted is the best balance of our 
readiness and modernization we could achieve within the 
physical constraints we face. We take this balanced approach 
seriously, as we must be ready for today while simultaneously 
preparing for tomorrow's challenges.
    The budget request you received continues our emphasis on 
recovering readiness, filling critical gaps, and improving 
lethality. The budget invests heavily in airmen, readiness, 
nuclear deterrence operations, space and cyber capabilities, 
combat air forces, and infrastructure. It supports the end 
strength growth we need to start to address combatant 
commanders' requirements, while also focusing on pilot 
production, a national crisis for us.
    We continue to maintain and modernize the nuclear 
enterprise, while also prioritizing the resiliency, future 
capabilities, and modernization of our space domain to operate 
in increasingly contested domains, environments.
    The budget also supports research, development, and 
fielding of game-changing technologies. As a department, we had 
to make tough choices in balancing capability, capacity, and 
readiness, while focusing on modernizing weapon systems and 
infrastructure. These decisions were not made easily or taken 
lightly, highlighting that unfulfilled requirements remain.
    As you are aware, the budgetary needs of the United States 
Air Force exceed projected topline funding as demand for Air 
Force capabilities currently far exceeds our supply. 
Uncertainty looms over the Department as sequestration and 
budget--and the Budget Control Act caps return with this year's 
budget. Budget stability remains vital, and relief of the 
Budget Control Act limits is necessary for the Air Force to 
realize its long-term strategy and meet today's and tomorrow's 
demands. If the law does not allow relief, it could lead to a 
repeat of the negative consequences of sequestration seen in FY 
2013.
    We request your engagement and assistance to ensure we do 
not go down that path again. General Harris and I look forward 
to answering the committee's questions today. Thank you again 
for the opportunity, and thank you for your service.
    [The joint prepared statement of General Bunch and General 
Harris can be found in the Appendix on page 87.]
    Mr. Turner. Thank you, gentlemen.
    Luckily, everyone in this subcommittee and our committee 
are opposed to CRs and sequestration, so we all have the same 
theme and are working in the same direction.
    We are going to have votes on the House floor, so we have 
somewhere between 45 minutes and an hour in order to accomplish 
everyone having an answer to a question. We are going to limit 
the time for a question and answer to 3 minutes so we can get 
to everyone. We did this last time and it seemed to work pretty 
effectively. We are doing it for the ranking member and the 
chair also. So I would appreciate if you would assist us in 
giving both complete, but also short answers. I think within 
that 3-minute time period, if we get to a point where someone 
has got to elaborate, you know, certainly we can continue.
    But my question goes to General Davis, Admiral Miller, and 
General Harris, and this is where you get to do a commercial. I 
appreciate everything you have said about the budget as 
submitted, but we are very concerned about the unfunded 
mandates. As we know, the Navy and Marine Corps, over 60 
percent of the Department of Navy F-18s cannot fly. The Air 
Force says it is the oldest and, you know, worst equipped in 
history that we have had. There is $3.9 billion that is asked 
for.
    General Davis, Admiral Miller, General Harris, if we put 
that $3.9 billion back, can you tell what we get and what we 
miss if we don't? General Davis.
    General Davis. Sir, those are F-35s, both Bs and Cs, or F-
22s, C-130s, V-22s, H-1 Zulu attack helicopters, and some OSA, 
operational support aircraft, airframes. Absolutely positively 
have to have that new inventory on the line. As we said, you 
know, the number's in the 60 percent that--today I can fly 91 
F-18s airborne. I have got 171 requirement. So if you looked at 
that 75 percent mission capable rate, I should have 128 that 
you should be able to fly any given day, so roughly we are 27 
short today, this morning. That is three squadrons worth of 
airplanes.
    So the bottom line is it is an imperative for us to 
recapitalize the force to get the new metal on the line, and 
that additional money will allow us to do that.
    Mr. Turner. Admiral.
    Admiral Miller. Yes sir, should additional funds above the 
President's budget be made available, the Navy's FY 2018 
unfunded priority list predominantly accelerates the recovery 
and the readiness and wholeness of the entire fleet, which was 
the premise of the 2018 budget. What you will notice on that 
Navy's unfunded priority list is aircraft procurement there at 
the top of the list, specifically with strike fighters, F-18s 
and F-35s. So those additional 10 aircraft for the F-18s and 4 
aircraft for the F-35s replenish combat-worn aircraft to reduce 
near-term strike fighter shortfalls and address long-term 
inventory deficits. As you know, we are fighting inventory 
management issues. These aircraft absolutely address that.
    For the F-35 specifically, it also accelerates our squadron 
transition plan and gets much needed fifth-generation [fifth-
gen] capability onto our aircraft carriers. Lower in the 
unfunded priority list you will notice some enabler accounts, 
the things that we talk about that are key to readiness: 
spares, logistics, and support. We were unable to fully fund to 
100 percent those accounts. The unfunded priority list does 
that for us. Thank you.
    Mr. Turner. General Harris.
    General Harris. Sir, first on our list would be readiness, 
and that gets at the airmen that we need to support and make 
sure that we have the growth for the Air Force based on the 
task given to us. The priority of those would be in our 
maintenance, our operations, and also our acquisition forces. 
The readiness modernization portion of that, it's the 
additional F-35s to get us to 60 per year, which we think is a 
minimum to get after the fifth-gen requirements that we have. 
You will also see some for nuclear deterrent ops to include our 
NC3 [nuclear command, control, and communications] operations 
and our ability to command and control our nuclear forces along 
with space and improving what we are doing on orbit both in our 
defenses and our SBIRS [Space Based Infrared System] satellite.
    So it is a large spectrum, but at the bottom of that list 
or still on the list is the infrastructure, because for a long 
time we have been cutting back on our infrastructure 
improvements and our ability to launch the power projection 
areas that we need within our Air Force.
    Mr. Turner. Ms. Tsongas.
    Ms. Tsongas. Thank you.
    I appreciate in your testimony, Admiral Grosklags, that you 
mentioned the efforts you are putting into addressing the 
physiological episodes. But as of today, it has been 2 months 
since normal training operations using the T-45 trainer 
aircraft were underway at Kingsville, Meridian, and Pensacola 
Naval Air Stations. So this is clearly a major problem for the 
Navy. And the long-term impact will certainly be more 
pronounced, the longer issues with the trainers persist. So 
without a reliable flow of new pilots and naval flight 
officers, the Navy will be in serious trouble from a personnel 
standpoint in the future.
    So in that regard I have two questions about possible ways 
forward. First, assuming this problem continues for some time, 
are there non-T-45 aircraft options for getting this training 
accomplished? If so, what are they? Can Air Force aircraft be 
used for at least some of the training syllabus? And can the 
training with the T-45 be cut back and then made up later in an 
aviator's career? So that's one.
    Second, several of the aviators our staff spoke with asked 
the Navy to take a serious look at changing at least some T-45 
aircraft back to a liquid oxygen [LOX] based system for 
providing breathing air to the crew. And they pointed out that 
the original British version of the aircraft did use such a 
system. So is the Navy looking at this option for T-45s? How 
might this time and cost--what might the time and cost be for 
doing that? And how can we in Congress help make sure this gets 
a serious look and testing in the near future? So a lot for a 
very short time.
    Admiral Grosklags. Okay, yes, ma'am. Let me start with the 
second question first on LOX. We are pursuing LOX as a 
potential solution to the problem. Today, we have got kind of a 
two-pronged approach. One is to try and identify root cause and 
then take corrective actions. The other is looking at alerting 
and protection measures so we can get the T-45s back in the air 
for flight training. And we are doing those two things in 
parallel. One is not waiting for the other.
    LOX is, quite honestly, a longer term solution. We are 
trying to come up with alert and protection methodologies that 
would get our students back in the aircraft in the near term. 
We are talking weeks instead of months that we would be looking 
at trying to put LOX in that aircraft. But we are still 
pursuing that as an alternative.
    Given the constraints, I won't talk about the alert and 
protection devices that we are looking at putting in the 
aircraft in the near term unless you want to follow up with 
that.
    In regards to T-45s and doing the training in other 
aircraft, we have looked and are continuing to look as this 
continues to stretch whether or not there are things we can 
push to the next stage of training in the fleet readiness 
squadrons. We prefer not to do that, obviously, because it 
costs more in those fleet jets. We are having our own readiness 
issues with those fleet aircraft, so putting more workload and 
more burden of ours in those squadrons is--I won't say last 
resort, but it is not something we want to pursue unless we 
absolutely have to.
    We have considered using other aircraft, potentially Air 
Force. I don't think we have talked to the Air Force about 
that. But one of the key things that you get out of T-45 
training is taking our new aviators and the student naval 
aviators to the ship, which we can only do right now in the T-
45 or in their next fleet aircraft. One of the challenges is 
determining what their next fleet aircraft is as they are going 
through the training syllabus. We would have to make those 
decisions before they completed their normal----
    Mr. Turner. Admiral, we need you to conclude.
    Admiral Grosklags [continuing]. Syllabus training.
    So, yes, ma'am, we are looking at all those options, 
including LOX, but we--again, we are more focused right now at 
trying to get the T-45s back in the air with alert and 
protection measures for our student naval aviators.
    Ms. Tsongas. Thank you.
    Mr. Turner. Mr. LoBiondo.
    Mr. LoBiondo. Thank you.
    General Bunch, for you, the 177th Fighter Wing in my 
district has Block 30 F-16s that are in urgent need of AESA 
[active electronically scanned array] radar upgrades. Luckily, 
phase 1 and 2 of the AESA joint urgent operational need is now 
considered fully funded. Additionally, 2-year $243.9 million 
contract to build 72 radars for the Air Force was just awarded. 
The contract allows procurement of roughly 450 to 500 radars 
and the program of record is set at 300. However, there is no 
additional pre-block F-16 aircraft in the modernization plan 
for the radars.
    I am concerned that if additional funding is not provided 
for the pre-block F-16, alert facilities like the one I 
represent at the 177th will only have eight uniquely configured 
aircraft per squadron. In the proposed F [FY] 2018 budget 
appears there is a little over $40 million for the F-16 phase 3 
research and development. Could you speak to the need for the 
future procurement funding for the AESA radar so that the Air 
Force can upgrade the entire fleet, including the remainder of 
the pre-block F-16s?
    General Bunch. Yes, sir, thank you for that. And you are 
right, we did award a contract to Northrop Grumman in May. We 
are starting the program to be on track for what we committed 
to, which was an IOC [initial operating capability] of third 
quarter FY 2019, and for the three units tasked for defending 
the National Capital Region to have that fully completed by the 
first quarter of FY 2021.
    Our procurement funding for additional aircraft starts--and 
that is to get to 72 aircraft that you mentioned, sir--our 
procurement funding starts in FY 2020 to address our 
requirement for 300 more radars. We do have, within the 
constraints of the contract, the room to grow that based on the 
numbers that you have said that we have 450 plus that we could 
put in that. Right now, that is the money we have got laid in 
for those procurements, so about 300 more.
    Mr. LoBiondo. Okay. Thank you. I yield back.
    Mr. Turner. Ms. Rosen.
    Ms. Rosen. Thank you. I want to thank you, Chairman Turner, 
Ranking Member Tsongas. I want to thank all the panelists for 
being here today.
    Of course, I represent southern Nevada. We have Nellis Air 
Force Base, Nevada Test and Training Range, Creech Air Force 
Base down south. So I am concerned about the procurement of the 
F-35s and, of course, the length of time that it takes, 
specifically as it relates to Nellis and our Red Flag training 
exercises.
    You know, all of those exercises, they are critical, those 
first 10 missions, critical training for our pilots to get out 
there and be battle ready. So how does this--what are you going 
to do to maintain a healthy fighter force while you are ramping 
up with procurement?
    General Harris. Well, ma'am, we will continue--thank you 
for that question. Nellis is one of the crown jewels of the 
U.S. Air Force and the airspace it has provided and all the 
support that comes from the community. That is our premier Air 
Force training location for our advanced training, which is 
perfect for the F-22s that are there and also the F-35s as the 
fleet grows. So we continue to acquire as many as we can in a 
year so that we can replace the fleets of older fourth-
generation aircraft. Hopefully, we will have fewer to modernize 
in the future and make sure that we get the training for both 
fifth-gen primary, but also pushing that training back to our 
fourth-gen teammates that play there, whether it is in the 
weapons school effort or in our Red Flag.
    Ms. Rosen. Thank you. I yield back.
    Mr. Turner. Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair. And real quickly, General 
Davis, thank you very much for your candor over the years. Give 
us an idea what the F-35 is bringing to you in Marine aviation.
    General Davis. Thanks so much for that question. It is an 
honor to serve.
    Ma'am, also, the Marines are up there at Nellis. We have 
instructors now integrating with the United States Air Force 
Fighter Weapons School, both in the test unit up there, and we 
like going up to the Red Flag as well. And we like our Air 
Force and Navy brothers and Army brothers coming down to fly 
with us down there in Yuma at our weapons school.
    I will tell you the F-35Bs are now forward deployed and, 
actually, they are permanently stationed in Japan, out there at 
the forward edge, at the tip of the spear. The combatant 
commander asked for the F-35s to fly in Korea a short while ago 
as a message to those who would try to do our Nation or our 
allies harm.
    Fantastic capability. Red Flag Alaska again up there as 
well. What we are finding that this airplane is doing for us it 
really is, I think, changing the way that we fight and changing 
the way we are going to fight for the foreseeable future. The 
young aviators that are flying the airplane are finding all 
kinds of things to do that we didn't even dream of. So it is 
a--and we are doing with that airplane, we are going to target 
areas that we never thought possible before. They see things 
they didn't see before. They are able to process data, and the 
kill ratios and the kill rates, both the air-to-air and the 
air-to-ground and all weather--really, all weather is the thing 
that we haven't had before. The radar allows you to see through 
cloud.
    So when you have got a marine, a soldier, sailor, airman, 
or ally that is on the ground that needs fire support, bottom 
line, having the F-35 out there in numbers, either staged based 
afloat or based ashore, is going to allow us to provide those 
high-volume fires, aviation fires regardless of the threat. It 
is really an exciting time to be a young person coming in to 
fly Marine airplanes, Air Force airplanes, Navy airplanes. And 
then we do have to get the T-45 fixed. I was down there in 
Meridian, talking to those young sailors and marines, and they 
are chomping at the bit to get in these new airplanes.
    Mr. Knight. I always love to hear General Davis talk about 
the F-35. So it is a great advertisement. And I thought I would 
give you one last chance.
    General Harris or General Bunch, the western ranges I 
always considered as part of kind of the infrastructure of what 
we do for air operations. And it is so important, especially 
with the F-35 and the F-22, because the ranges have to be so 
much bigger and more expansive. Of course, we can go out to the 
ocean and things of that nature, but give us an idea of what 
the western ranges are to air operations.
    General Bunch. Well, sir, the western test ranges are 
critical to our test and our training. They are critical to 
everything that we do. And we have a healthy investment into 
those to modernize them and make them more capable. We are also 
making--but as you said, given the fifth-gen planes and what 
they can do, we are now outgrowing some of our ranges to the 
point that we need more. So we are focusing in, also, on live 
virtual constructive to be able to create an environment where 
we can do those to the threat density we need and everything 
else.
    But they are critical. We are--we do see them as a crown 
jewel. We are investing in them to modernize them, to make them 
more capable to do what we need, but we are also investing, as 
those fifth-gen capabilities grow, they are going farther and 
farther out, and we need to advance those capabilities as well.
    Mr. Knight. Thank you. Thanks, Mr. Chair.
    Mr. Turner. Mr. O'Halleran. And following Mr. O'Halleran, 
the next four are Kelly, Gaetz, Brown, and Bacon.
    Mr. O'Halleran.
    Mr. O'Halleran. I thank you, Mr. Chairman. And thank you to 
the witnesses for your service, your families' service, and for 
coming before us today.
    My questions are for Admiral Grosklags and General Bunch. 
The budget request shows a drop in the production rate in 2018 
for an air-to-air missile, the AIM-120D. That is a very high 
demand, and as we were told by the Chief of Staff of the Air 
Force and Chief of Naval Operations, a critical weapon Navy and 
Air Force need many more of right now. Specifically, the 
request is lowered by more than 300 missiles in comparison to 
projections in last year's budget.
    Based on the budget, it appears the issue might be some 
kind of part supply--supplier or part obsolescence problem. Can 
you explain this reduction in the production rate? Is it due to 
a lack of funds or some other problem? If Congress were to add 
funding, could it be used to buy more missiles or are you 
limited by where things are with the production line? I 
understand wanting to limit your budget exposure under the 
assumption that the F3R [form, fit, function refresh] delay 
would limit fiscal year 2017 production quantities, but the 
redesign effort shows these reductions are premature when we 
really should be closing the inventory shortfall.
    General Bunch. Sir, I will take the first shot, then I will 
let
G-8 jump in at the end of this.
    So the driver for why the numbers do go down in the budget, 
we stay steady in 2017, and we do go down in 2018, in 2019 we 
go back up, it is tied to the difficulties we are having 
getting the form, fit, function refresh on schedule and 
progressing. It is something we continue to work with the 
company, but what we did was we intentionally laid in a line so 
that they had the ability to break that into the production 
without causing a more negative ramp. We actually have looked 
across our weapons inventories. As many know, we are using a 
lot of weapons right now. We are looking at what we need to 
build up. That is actually one that General Harris and I kind 
of agree, that is not one we need to try to add dollars to to 
do right now. We need them to get the form, fit, function 
properly done and get that on track.
    Then once we get that on track, I would be willing to come 
back and ask you for additional help, but I am not ready to ask 
for that right now, sir.
    Admiral Grosklags. You know, from the Department of Navy's 
perspective, we are in exactly the same place. I think if you 
look at what we have budgeted for across the FYDP [Future Years 
Defense Program], which I know is not the issue here today, we 
have actually maintained the total quantity across the FYDP, 
but we did come down in FY 2018 and 2019 for the exact reasons 
that General Bunch stated.
    Mr. O'Halleran. So just to clarify, there is an inventory 
shortfall on these weapons, but you have just decided to----
    General Bunch. We would love to buy more, sir, but I need 
them to get the production right before we buy too many more 
and I run out of parts on the line and I don't have the ability 
to produce.
    Mr. O'Halleran. Thank you. And I yield.
    Mr. Turner. Mr. Kelly.
    Mr. Kelly. Thank you, Mr. Chairman.
    Vice Admiral, I understand the Navy's Next Generation 
Jammer Increment 1 program recently was able to accelerate some 
of the program's milestones throughout the life of the program. 
Can you tell us how important the updated jamming capability is 
to the warfighter, and are there additional efforts to get 
Increment 1 fielded faster? And I think you are the only vice--
I don't do well with names so----
    Admiral Grosklags. That is okay. I will ask Admiral Miller 
to jump in if needed.
    The program just recently passed its milestone B, so they 
are fully in their development stage at this point. They are on 
track. We anticipate a milestone C, which is lower then initial 
production in 2019 and fielding in 2021. This is one of former 
Secretary Kendall's accelerated programs, if you will, and we 
have been taking advantage of that at every turn. It has 
significantly less oversight within the building than most of 
our ACAT [Acquisition Category] I programs.
    And the program, we are trying to accelerate it. We don't 
currently have any insurmountable technical hurdles, but there 
are some things we need to work through, particularly with the 
amount of radiated power we are trying to get out of that pod 
and the effects that it has on the rest of the aircraft systems 
when it is radiating.
    So we plan to start flight tests late 2018, early 2019, and 
then we will get a full evaluation of those interference 
effects.
    Mr. Kelly. And then just very briefly. I know that there 
are $2 billion in Increment 2, the budget shows $2 billion for 
Increment 2. Does this take into account any potential cost 
savings in the overall Increment 2 program if common hardware 
is used from Increment 1?
    Admiral Grosklags. It does, but right now we don't 
anticipate a significant amount of common hardware due to the 
significantly different frequencies we are dealing with and the 
location of the pod on the aircraft and, again, mutual 
interference effects.
    Mr. Kelly. And then my next question deals with the MQ-4C 
Triton. In your testimony, you talk about it. In 2009, the Navy 
initiated demonstration program of unmanned maritime ISR using 
the older model Global Hawk that the Air Force was no longer 
using. We are still using it, and so--in support of the U.S. 
5th Fleet in Central Command region. Can you tell us what 
capabilities the Triton will bring to the fleet and how they 
are shaped by what you learned from the demonstration?
    Admiral Grosklags. We continue to fly our BAMS [Broad Area 
Maritime Surveillance] demonstrator, the one aircraft that we 
have that was considered a 1- or 2-year demonstration program. 
I think we have had it out there flying in CENTCOM now for 
about 7 years. So we continue to gather data. The biggest 
changes for the Q-4 are in terms of its ability to fly in 
weather and turbulence conditions that some of its predecessors 
could not. So we did some significant structural modifications 
to that aircraft.
    We are leveraging all the work that the Air Force has done 
ahead of us in terms of the TC [traffic control] pattern, the 
communications from that aircraft, the dissemination of the 
intelligence surveillance information. And as you know, we are 
quickly going to turn that after it IOCs into a multi-INT 
[multiple intelligence] sensor. So when we EOC [early 
operational capability] in 2018, right behind that in 2020 we 
will have an initial operational capability for that multi-INT 
sensor capability.
    Mr. Kelly. Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    General Bunch, thank you for your service to the country 
and also to my district during your time at Eglin Air Force 
Base.
    You are aware that the Gulf Range is important for the F-35 
training mission. You are also aware that the equipment that 
supports the Gulf Range is very old. What importance does the 
Air Force place on upgrades to the Gulf Range so that we can be 
fully capable with the F-35?
    General Bunch. So in my previous position as a test center 
commander, we created what we needed to do to modernize. Now 
that path is coming back in and we are evaluating in our budget 
priorities. We have invested in some areas there, sir, to grow 
those capabilities. We know it is critical for what we need to 
be able to do to have the ranges that we need and the distance 
that we need to be able to execute things, and there is a lot 
of good things that can go in there that we are working on.
    Mr. Gaetz. My next question is for Admiral Grosklags. I 
have a letter dated May 5th, it is signed by Chairman Turner, 
Ranking Member Tsongas, and myself. It requests the schedule 
and timeline for tests and evaluations of equipment associated 
with the T-45, including the equipment being tested, the 
location of those tests, the frequency of those tests, and how 
the results of the tests are informing the Navy moving forward. 
As of today, we have not received that information. Is that 
typical?
    Admiral Grosklags. No, sir, it is not. Typically, we try 
and respond within 10 days to 2 weeks. And I have to apologize 
for the fact that we haven't gotten that response to you. I 
know that it is in the process of being sent back over here to 
the Hill, but I can't give you the exact status or where it 
sits today.
    Mr. Gaetz. I will yield my remaining minute and 40 seconds 
to the chairman so he can advise as to how I can get this 
information that is critically important to my constituents.
    Mr. Turner. I think you are doing it. As you know, we are 
working together on it, and it is great that you have once 
again raised this issue. The--I think we will leave this record 
open and also make any continuing obligation for an answer to 
this hearing. But, you know, clearly, this is a priority for 
the committee and Mr. Gaetz, and we want to see the request 
satisfied.
    Admiral Grosklags. Sir, understand.
    Mr. Turner. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Over here? Yep.
    This question is for Admiral Miller and General Harris. For 
the last 15 years, there has been a gap in the airborne ISR 
capabilities, or I should say capacity, and the demand or the 
need in the field. How do you go about determining what is an 
acceptable or optimal level of support? What is the 
aspirational goal? Where should we be? And what is the--in the 
2\1/2\ minutes left, what is the plan to get us there?
    Admiral Miller. Well, earlier we talked about the Triton, 
MQ-4 Triton, and I will tell you, it is going to be a game 
changer. We have been flying the one BAMS demonstrator--the 
Broad Area Maritime Surveillance demonstrator, in 5th Fleet. 
Now we are talking about orbits worldwide with the Triton, with 
the extra sensors that it is going to provide, as well as the 
multi-INT capability that, as Admiral Grosklags said, will 
arrive later in 2020.
    So what this will be able to provide to the theater 
commanders, to the fleet commanders, and contribute to 
basically all the forces that are in its AOR [area of 
responsibility] that it will be operating I think will be 
significant.
    General Harris. Thank you, sir, that is a great question. 
We always try and provide everything to the warfighter, but the 
demand has been somewhat insatiable. So in our effort to make 
sure that we are providing a long-term capability, we have 
frozen our medium-altitude ISR at 60 lines with the intent of 
getting the team healthy so that we can surge if required for 
the future.
    On that line, though, we continue to make improvements. And 
we are changing from the MQ-1 to an all MQ-9 fleet to give us 
better capability and capacity for both ISR and combat 
employment. In addition, in an unclassified format, upgrading 
the sensors on that particular weapon system. We also have 
high-altitude ISR that we continue to provide, and we are 
looking at recapping our big-wing ISR, which will help focus 
our medium-altitude ISR into more important areas and be on 
target much faster.
    Mr. Brown. Great. Unrelated follow-up, at Joint Base 
Andrews where I represent, the question was already asked about 
the radar system and, certainly, with that important mission 
homeland defense and respond to emergencies around the National 
Capital Region. We are looking forward to a timely delivery of 
those radars.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Mr. Bacon.
    Mr. Bacon. Thank you. I want to thank all of you for being 
here today. And I want to recognize General Davis' service. You 
were great to work with in the current capacity, but also when 
you were in Cyber Command.
    We have the best air power in the world, but it has been 
put under a lot of strain with continuing resolutions, you 
know, the BCA [Budget Control Act] caps. And we owe you better, 
and I hope we do that.
    I have a couple questions on ISR and EW [electronic 
warfare]. First, a comment. I appreciate the fact that we are 
funding the
U-2 program in conjunction with the Global Hawk. I think we 
need both. And there is a lot of unmet ISR needs out there, so 
I applaud that, I commend it.
    A question with the E-8 program. I think we have a lot of 
unmet GMTI [Ground Moving Target Indicator] requirements out 
there, and I think we have a good plan for the recap or 
modernization. Do we have a shortage in funding, though, when 
it comes to the legacy E-8 as we transition? Because I am under 
the impression we do. I was just hoping you would comment.
    General Bunch. Sir, I don't believe we have a shortfall 
there in funding. What I have is a shortfall in the ability to 
get them in the air and have them available to support the 
mission. So the aircraft are old and the aircraft have 
diminishing--well, not so much diminishing, they are having 
higher downtime for heavy maintenance, and we have not been 
able to get as many of them in the air. It has taken longer to 
get them through the depot. So what we are looking at is how do 
we work with the contractor to do the depots in a more timely 
manner, to increase the number of aircraft that are available 
with this high-demand, low-density targets that we have.
    Mr. Bacon. Right.
    General Bunch. And the other item we are doing to make sure 
that we fill the gap until we get the recap effort going, we 
are doing service life studies in a variety of areas. We did 
one on the fuselage. That extended the life out more. And our 
intent is to ensure that we are doing everything we can to keep 
that aircraft viable until we get the recap done so we can meet 
the combatant commanders' requirements.
    Mr. Bacon. Okay. Thank you very much.
    One last question, on the F-35, it has incredible sensors 
onboard. And I think we have a plan right now to do the links 
with the wingman, but I see there is a gap. I don't see where 
we are meeting that gap of getting that information off the F-
35s back to home station while they are flying so that the 
follow-on missions will get that information faster.
    Do we have a plan or a thought process how we are going to 
try to transition or get a plan where we can get this 
incredible data off the F-35 back more quickly so we can use 
it?
    General Davis. I can take a crack at that, sir. We are 
doing some experiments with that right now. One, in conjunction 
with the Navy. The mission area----
    Mr. Turner. General, I am going to ask if you would submit 
the answer to that for the record. And we are going to take it 
that it is yes, but the detailed response, we are going to ask 
for you to submit to us, if you can submit that quickly.
    [The information referred to was not available at the time 
of printing.]
    Mr. Turner. Let me go to Mr. Banks, with everybody's 
approval, for 2 minutes, and then we are going to close out 
with Ms. McSally, who is going to ask a question that the 
answer is going to be for the record.
    So, Mr. Banks, you have 2 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Lieutenant General Harris, first of all, I commend you for 
your work in the President's budget to fully fund the A-10 
weapon system. It has been and continues to be a great asset to 
our Air Force and is of significant importance to my district 
in northeast Indiana, which is the proud home of Indiana's Air 
Guard's 122nd Fighter Wing.
    As you certainly know, over the past few years, this wing 
has been slated to convert their mission from the A-10 to the 
F-16. Yet, yesterday in the Senate, Secretary Wilson stated, 
quote, ``The A-10 is at Fort Wayne, and we have no intention of 
removing it. It is there for the foreseeable future, and they 
will have that manned combat mission,'' end quote.
    You stated in your testimony that the transition away from 
the system will occur in 2030. So my question is, how do you 
see that transition occurring for current squadrons, 
particularly those wings in our National Guard, and will they 
then utilize F-16s, with a transition directly from the A-10 to 
the F-35? How do you see that transition occurring?
    General Harris. Well, we are committed to flying the A-10 
weapon system and continuing to work through the upgrades to 
that as we are required to, and with the NDAA [National Defense 
Authorization Act] to compare it for the F-35 CAS [close air 
support] comparison task that we have.
    Our intent is to fly that weapon system as long as we can, 
because we have made cuts in the A-10, the F-16, and pretty 
much all of our conventional fighters based on our budget. So 
if we had an unlimited budget, we would keep everything we have 
and just continue to grow an F-35 fleet.
    At 48 to 60 F-35s a year, we will be retiring some of our 
older airplanes and putting newer airplanes or more capable 
airplanes into these units. Right now, the plan continues to be 
that, and we will address this, that as we reduce some of the 
A-10 capability that has been approved, it will be either with 
F-35s or with the F-16 for the weapon system.
    Mr. Banks. Thank you. I yield back.
    Mr. Turner. Gentlemen, many people have additional 
questions. They are going to submit those to you for the 
record. I am going to ask that you submit your answers within 
10 days of receipt of them in writing. I have two members who 
are going to ask their questions for the record here now and 
not receive a response, but a written response from you. And it 
is Martha McSally, and then Mr. Langevin will be asking, and 
they are going to have 2 minutes.
    Ms. McSally. And as usual, thank you, Mr. Chairman. I have 
questions about the A-10. So in your testimony, you say you are 
committed to maintaining a minimum of six A-10 combat squadrons 
through 2030, with at least 171 combat-coded A-10s and 283 in 
the fleet, which we continually here protect every year. That 
is nine squadrons that we currently have.
    The A-10s are now, as you know, on the DMZ [Demilitarized 
Zone] in South Korea. They are kicking butt against ISIS 
[Islamic State of Iraq and Syria]. They are deploying with the 
European Reassurance Initiative. I was over in Estonia, they 
are welcoming them to come back any time soon with the Russian 
aggression there.
    From my view and my experience, if we need that capability 
until a proven tested replacement comes along, nine squadrons 
is the absolute minimum. So I really would like to know--I 
think this is the first time you guys have publicly said, 
although I have a pretty good intel [intelligence] sources with 
my buds in the A-10 community, but it is the first time you 
have publicly said that you are going to go down to six 
squadrons. I would really like to know what those planning 
assumptions are of the six squadrons that could be as soon as 
the testing and evaluation is done, so that could be in a few 
years from now. What are your planning assumptions? Are they 24 
PAA [primary aircraft assigned] squadrons? Which squadrons are 
going away? Where is the A-X program, which we don't see in 
your testimony at all? How does this all fit together?
    So again, a lot of questions on your assumptions here for 
this critical capability, and I look forward to hearing your 
responses on the record.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 116.]
    Mr. Turner. Last question, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank all 
of our witnesses and thank you for your service.
    General Harris, tactical data links are critical to mission 
success forming the core communication network that transmit 
the common operating picture, shared situational awareness, 
distributed sensor data for fusion, and integrated fire control 
across fighters, bombers, and surface ships. However, 
significant gaps remain in the tactical fighter networks that 
prevent the Air Force and other services from maximizing the 
combat utility of their aircraft, specifically, secure 
communication between the F-22 and the F-35 in an A2/AD [anti-
access/area denial] environment.
    And, General Pleus, the director of the F-35 integration, 
recently stated there is currently nothing on the books for any 
testing to solve this issue between fifth-generation aircraft. 
What is the Air Force doing to address the problem these two 
aircraft communicating during a penetrating strike or counter-
air mission?
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Langevin. And then for all of our witnesses, while 
unmanned aircraft systems provide strategic ISR and combat 
capabilities, I also believe that these systems have the 
potential to be used for humanitarian operations in disaster 
areas abroad, particularly when it comes to mapping lightweight 
essential item delivery, damage assessment support, and 
increased situational awareness. How is the Department using 
unmanned aircraft systems in support of humanitarian missions 
abroad, and will modernization efforts support these disaster 
relief and humanitarian operations, and what more can be done 
to advance this concept?
    [The information referred to can be found in the Appendix 
on page 115.]
    Mr. Turner. Thank you, Mr. Langevin. And if you could leave 
the written copy of that question so that they could have it 
behind so we don't have any delay in them receiving it.
    I look forward to your written answers within 10 days. And 
as we stated before, we have votes on the House floor, so 
because of that, we will be adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]
    
=======================================================================

                            A P P E N D I X

                              June 7, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 7, 2017

=======================================================================

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              June 7, 2017

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Admiral Grosklags and Admiral Miller. To date, no Unmanned Aircraft 
Systems (UAS) developed by the Department of the Navy have been used in 
support of Humanitarian Assistance and Disaster Relief (HA/DR) 
missions. However, the Navy and Marine Corps have led, and participated 
in, Joint Task Forces supported by UAS owned and operated by other 
organizations. The importance of capabilities provided by unmanned 
systems when planning a coordinated response is well recognized by 
military leadership, Government Organizations, Non-Government 
Organizations (NGO), Private Volunteer Organizations (PVO), and other 
international responders. The earliest and best known instance of 
military unmanned aircraft systems (UAS) used in a HA/DR role was the 
use of a RQ-1 Predator in support of Operation Unified Response after 
the 2010 earthquake in Haiti. After Hurricane Matthew in 2016, Guardian 
UA, owned and operated by the Customs and Border Patrol, provided 
surveillance and reconnaissance support to the Joint Task Force 
Commander supervising hurricane relief efforts in Haiti. The Department 
of the Navy, in partnership with commercial companies, is exploring 
development of unmanned cargo delivery systems with varying load 
capacities to support our warfighters. While the primary purpose is 
supporting warfighters in combat, there is potential use across the 
broader military mission spectrum. As the Navy continues to mature our 
operational concepts for UAS systems, we will utilize UAS across our 
entire mission set, including HA/DR.   [See page 19.]
    General Davis. [The information referred to was not available at 
the time of printing.]   [See page 19.]
    General Bunch and General Harris. The Air Force provided MQ-1 
Predator and RQ-4 Global Hawk to Combatant Commanders globally to 
support of multiple humanitarian efforts. In January 2010, the Southern 
Command deployed the MQ-1 aircraft to Puerto Rico in support of Haiti 
relief efforts following the January 12, 2010 earthquake. The MQ-1 
provided Full-Motion Video (FMV) to identify heavily impacted areas and 
relay timely information. In March 2011, Pacific Command tasked RQ-4 
aircraft to fly over Japan and provide overhead imagery that directly 
impacted relief efforts. Also, in October 2016 after Hurricane Matthew 
struck Haiti, Southern Command employed an RQ-4 imaging facilities and 
infrastructure to guide U.S. efforts providing aid.
    Overall, the DOD uses Remotely Piloted Aircraft (RPA) in support of 
humanitarian missions abroad in the same manner as it uses manned 
aircraft. These systems, specifically the MQ-9 Reaper and the RQ-4, are 
both on a modernization timeline that will grow and sustain the sensor 
capabilities, aircraft loiter times, and utilization across multiple 
mission areas to include humanitarian support. At this timethe Air 
Forces sees that it is doing everything appropriate to ensure RPAs are 
available to meet a wide range of Combatant Commander needs well into 
the future.   [See page 19.]
    General Harris. Two Air Force lines of effort address cross-
platform communications in an Anti-Access/Area Denial environment. In 
the near term, driven by the Air Superiority 2030 Flight Plan, the Air 
Force is conducting small scale experimentation campaigns to reduce 
risk and to expedite fielding of Advanced Tactical Datalinks and 
enhancements to existing tactical datalinks. These experiments are 
demonstrating correlation/fusion of data from multiple sources, 
including intelligence sources and 5th generation fighters. Also, the 
Agile Communication Capabilities Based Assessment (CBA) is defining 
communication gaps that the Air Force must mitigate in A2/AD 
environments in the 2030+ timeframe. The outcome of each of these 
efforts will inform the path forward for communications capabilities 
that enable interoperability across the A2/AD environment. Currently 
the F-22 has a funded program. TACLink 16, that will add Link 16 
transmit capability. This will allow the two aircraft to communicate 
during operations. This program will begin fielding in FY 2021.   [See 
page 19.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. McSALLY
    Admiral Grosklags and Admiral Miller. The Department of the Navy 
does not operate the A-10 aircraft. I recommend this request be 
forwarded to the U.S. Air Force team for official response.   [See page 
19.]
    General Davis. [The information referred to was not available at 
the time of printing.]   [See page 19.]
    General Bunch and General Harris. The Air Force has a requirement 
to retain the A-10 for the foreseeable future and is planning to retain 
the entire 283 aircraft A-10 fleet at a minimum until 2021. Future 
updates to the DPG as well as completion of the final F-35 Initial 
Operational Test and Evaluation (IOT&E) Block 3F report may inform a 
decision to retain fewer than 283 A-10s beyond 2021.
    However, beyond 2021, the Air Force can only afford to retain 173 
of the 283 A-10s at current budget levels. An additional Total 
Obligation Authority (TOA) is needed in 2018 and beyond to keep 
additional aircraft. Including new A-10 wings in the FY18 UPL shows the 
Air Force requires more than 173 of our A-10s through 2030, but that we 
cannot fund them internally based on priorities and tough planning 
choices.
    283 A-10s provide two training units, 9 combat coded squadrons, and 
the associated test and weapons school assets needed. 173 A-10s provide 
one large training unit, 6 combat squadrons, and the associated 
additional assets.

Future Options for the A-10 Fleet
    283 A-10s--Purchase additional wings: 283 A-10s can only be 
retained beyond 2021 with approximately $1.4B of additional Air Force 
TOA in the FYDP. The significant cost of retaining the additional 110 
A-10s consists of both buying new wings ($954M total, $380M in FYDP), 
and sustaining the aircraft operations and maintenance ($500M per 
year).
    Initiating this acquisition program in FY18 would establish an 
ability to buy additional wings in the future with corresponding Air 
Force TOA increases. With funding in place, it would take approximately 
one year to get on contract, with delivery of the first wing as early 
as FY22. By FY22 approximately 51 A-10s will be grounded due to their 
wings, depending on depot capacity to overhaul existing A-10 wings. 
Total cost for 110 new wings is approximately $954 million, with last 
delivery approximately 11 years after initial award (2030 completion 
with funding initiated in FY18).
    The FY18 Unfunded Priority List (UPL) includes $103M that, in 
addition to the $20M Congressional add from the FY17 budget, can fund a 
new contract for four wings. People, tooling, non-recurring engineering 
and buildup of the 1st wing make up the preponderance of costs 
associated with this $123M, as detailed below:

 
------------------------------------------------------------------------
              Cost Element                          Cost ($M)
------------------------------------------------------------------------
1st article                               $40.00
------------------------------------------------------------------------
3 x LRIP ($12M/ea.)                      $36.00
------------------------------------------------------------------------
Tooling                                  $15.00
------------------------------------------------------------------------
Startup                                  $29.50
------------------------------------------------------------------------
Contract Total                           $120.50
------------------------------------------------------------------------
OGCs (PMO)                               $3.40
------------------------------------------------------------------------
Total                                    $123.90
------------------------------------------------------------------------


    173 A-10s--Fly existing A-10s wings to end of service life: Without 
additional funding, the Air Force could fly the A-10 fleet until the 
service limit of currently installed wings. Approximately 51 A-10s 
would be grounded by FY22, and flyable aircraft would decrease to 173 
A-10s by the mid-2020s.
    Acquire a new aircraft: The F-35A is designed to recapitalize the 
A-10 when it is retired.
    The AX-2, a purpose built A-10 replacement, could also be 
considered among a range of options as A-10s reach their end of their 
service life, but is not funded.
    The OA-X is a concept being evaluated through the Light Attack 
Experimentation Campaign and is not an A-10 replacement. OA-X could be 
an additive counter-land platform to complement the existing CAF. It is 
not a program at this time and would require additional TOA.   [See 
page 19.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              June 7, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Approximately 6-7 weeks ago, you presented a briefing 
to a ``HASC Roundtable'' on the status of addressing the Physiological 
Episodes (PE) experienced by Navy and Marine Corps pilots flying F-18 
and T-45 aircraft. Please provide us a brief update on the progress 
addressing this critical personnel safety issue.
    Admiral Grosklags. The root causes and solutions for PE prevention 
are being attacked in a coordinated effort between Naval Air System 
Command (NAVAIR), NASA, fleet operators, industry, international 
partners and aeromedical experts. No conclusive root cause or 
combination of causes yet has been identified.
    T-45--The Navy's most recent efforts to mitigate physiological 
episodes center on alerting, protecting, preventing, and monitoring. 
Specific actions include performance of maintenance activities to 
ensure the hygiene and integrity of the breathing gas system and to 
functionally check and recertify critical systems sensors and 
components that affect its designed functionality; air quality is being 
measured on all aircraft. System modifications include addition of a 
water separator and a new oxygen pressure and concentration monitoring 
system. All flights include sorbent tube assemblies and hydrocarbon 
detectors worn by all aviators to measure the quality of the breathing 
gas reaching the aircrew mask. Additional PE sensors, data collection 
and analytics are being investigated and aggressively pursued, to 
include automated sensing monitoring and reporting technologies that 
measure aircraft performance and/or human performance in the flight 
environment. In parallel, NAVAIR continues to execute RCCA 
investigation through empowerment of a government, industry, and naval 
aviator team that is executing a disciplined process to eliminate or 
affirm potential causal factors on the basis of rigorous, data-driven, 
analytic efforts. Chief of Naval Air Training (CNATRA) Instructor 
Pilots (IPs) returned to flight using OBOGS on Monday 17 July. Student 
syllabus flights on OBOGS began the first week of August.
    F/A-18--NAVAIR continues to support the F/A-18 RCCA investigation. 
The team consists of government, industry, and Royal Australian Air 
Force (RAAF) personnel working closely together to close out a 411 
branch fault tree to determine the root cause of Physiological Events 
(PE). A toxicology team has been identified to understand the levels 
and potential impacts of contaminants in the F/A-18 Onboard Oxygen 
Generating System (OBOGS) and Environmental Control System (ECS), and 
the Navy is leveraging the experts in aeromedical and dive medicine to 
understand the effects of anomalous cockpit pressure situations on 
aircrew. All applicable and available aircraft, ECS and OBOGS data 
sources are being utilized to aid in PE analysis.
    Mr. Turner. What is DOD's search and rescue (SAR) capability in the 
U.S. Africa Command? Are there gaps in the capability or capacity for 
this theater that need to be addressed? Does the budget request or the 
unfunded requirements list address any requirements for SAR capability 
or capacity in U.S. Africa Command?
    General Davis. [The information referred to was not available at 
the time of printing.]
    Mr. Turner. General Davis, what Marine aviation readiness concerns 
do you have? What are your concerns regarding spare parts for your 
tactical aircraft?
    General Davis. [The information referred to was not available at 
the time of printing.]
    Mr. Turner. What is DOD's search and rescue (SAR) capability in the 
U.S. Africa Command? Are there gaps in the capability or capacity for 
this theater that need to be addressed? Does the budget request or the 
unfunded requirements list address any requirements for SAR capability 
or capacity in U.S. Africa Command?
    Admiral Miller. I defer to Joint Chiefs of Staff or Office of 
Secretary of Defense.
    Mr. Turner. You mentioned in your opening remarks that unmanned 
systems such as the MQ-4 Triton are modernization priorities for the 
fiscal year 2018 budget request. How does the budget request insure you 
meet the fielding of the capability for first deployment and Follow-on-
Modernization.
    Admiral Miller. The fiscal year 2018 budget request supports the 
MQ-4C Triton fleet introduction as a key component to the Navy's 
``family of systems'' to achieve maritime domain awareness. The 
program's fielding and modernization is aligned to support the Maritime 
Intelligence, Surveillance, Reconnaissance and Targeting (MISR&T) 
Transition Plan. This plan aligns key program events and funding with 
the development of the Multi-Intelligence (Multi-INT) capability 
upgrades and capacity to support warfighter demand. Triton will deliver 
capabilities essential for FY11 National Defense Authorization Act 
compliance. To support the MISR&T transition plan, the Navy prioritized 
remaining work and adjusted the Triton fielding plan by truncating the 
Triton Baseline program to deliver a safe, stable and effective system 
that establishes the foundation for Triton Multi-INT development. The 
PB18 request provides funding for an Early Operational Capability to 
facilitate Fleet introduction and learning in FY18 and will lay the 
foundation for Multi-INT fielding that supports the sundown of the EP-
3. PB18 includes funding for retrofitting Low-Rate Initial Production 
(LRIP) lot 1 and 2 air vehicles from the Baseline configuration to the 
Multi-INT configuration. LRIP lot 1 and 2 vehicle retrofitting will 
increase Triton Multi-INT capacity from three to five air vehicles by 
the end of FY20.
    Mr. Turner. The subcommittee understands that the Air Force is 
undertaking a Lead Systems Integrator acquisition approach to re-host 
the capabilities of the C-130 Compass Call electronic warfare aircraft 
onto a new aircraft yet to be determined by the Lead Systems Integrator 
contractor. Does the Air Force plan to use a Lead Systems Integrator 
acquisition approach for the future recapitalization of other small 
inventory aircraft such as the E-3 AWACS or RC-135 Rivet Joint 
intelligence, surveillance, and reconnaissance platforms?
    General Bunch. The Air Force is employing a ``System Integrator'' 
approach for the COMPASS CALL re-host program. The term ``Lead Systems 
Integrator'' (LSI) is defined in the FY2008 NDAA, Sec. 802, as follows: 
``(A) a prime contractor for the development or production of a major 
system, if the prime contractor is not expected at the time of award to 
perform a substantial portion of the work on the system and the major 
subsystems; or (B) a prime contractor under a contract for the 
procurement of services the primary purpose of which is to perform 
acquisition functions closely associated with inherently governmental 
functions with respect to the development of a major system.'' The 
COMPASS CALL re-host program transfers existing mission equipment from 
the EC-130H aircraft to an existing commercial derivative aircraft 
platform, and the aircraft integration to be performed by L-3 
Technologies makes up a significant portion of the COMPASS CALL re-host 
program. Moreover, L-3 is not being asked to perform any inherently 
governmental functions. Rather, the Air Force has defined the 
requirements of the COMPASS CALL re-host effort and the Air Force will 
ensure L-3's proposed solution meets those requirements. Thus, L-3 
Technologies' role doesn't fit either prong of the LSI definition. The 
Air Force conducted extensive analysis in determining the most 
efficient, expedient and cost effective means to acquire COMPASS CALL 
capability through a system integrator approach. The Service will apply 
a similar level of rigor into development of the acquisition strategies 
for the follow-on capabilities replacing the E-3 AWACS and RC-135 Rivet 
Joint platforms. As for the requirements for the previously referenced 
platforms have yet to be determined, we cannot say with certainty what 
the acquisition strategies for these programs will be. Upon receipt of 
validated requirements, the Air Force's acquisition team will evaluate 
the efforts on a case by case basis and determine the most efficient, 
expedient and cost effective strategies for delivering these critical 
capabilities to the warfighter.
    Mr. Turner. What is DOD's search and rescue (SAR) capability in the 
U.S. Africa Command? Are there gaps in the capability or capacity for 
this theater that need to be addressed? Does the budget request or the 
unfunded requirements list address any requirements for SAR capability 
or capacity in U.S. Africa Command?
    General Harris. DOD has several assets in theater providing SAR 
capabilities to U.S. Africa Command. The actual type, number and 
location are classified. There are shortfalls in requested forces for 
U.S. Africa Command. The Joint Staff is currently exploring courses of 
action to optimize SAR support across all Combatant Commands. Actual 
type, number and location of shortfalls for U.S. Africa Command are 
classified. There are contracted resources that supply SAR support for 
U.S. Africa Command that are included in DOD's budget request. Actual 
type, number and location of these contracted resources are classified. 
Beyond these contracted assets, no specific requests to support SAR 
capability or capacity in U.S. Africa Command are contained in the 
budget except as it relates to budget support for systems that support 
the overall SAR enterprise.
    Mr. Turner. Comparing the F-35A procurement in the 17 budget with 
the proposed 18 budget, it appears that the Air Force is requesting to 
increase the number of F-35s procured each year. Can you describe how 
many F-35s the Air Force is currently procuring each year and how many 
the department would like to buy?
    General Harris. The FY 18 PB has the following procurement profile: 
FY18--46, FY19--48, FY20--48, FY 21--54, FY22--54. Additionally, the 
Air Force requested 14 on the Unfunded Priorities List and would like 
to procure 60 aircraft per year as quickly as possible.
    Mr. Turner. What funding is the Air Force requesting in the FY2018 
President's Budget to support plans to extend the F-15C/D's service 
life? Additionally, the Air Force budget request cuts a significant 
amount of funding for installation of the Eagle Passive Active Warning 
Survivability System, or EPAWSS, on the F-15C aircraft. Why did this 
funding reduction occur and how does not installing EPAWSS on F-15C 
aircraft affect its future relevance and survivability in combat 
operations?
    General Harris. The Fy18 PB requests $30.5M to begin a service life 
extension program for development/production of wings and longerons for 
the F-15. These actions maintain the necessary airframe economical 
service life options for the Air Force to finalize its force structure 
study. Current uncertainty regarding service life extension for the F-
15C/D resulted in the reduction of F-15C/D EPAWSS procurement funding. 
The Air Force is fully funding the development of EPAWSS on both the F-
15C/D and the F-15E. This is risk mitigation to maximize flexibility 
for future force structure decisions. Research and development of 
EPAWSS can be used across several platforms.
    Mr. Turner. How long is the Air Force planning to keep the E-8C 
JSTARS legacy fleet in service, and is the Air Force planning for a 
transition that does not result in a decrease of Moving Target 
Indicator intelligence capacity when the JSTARS Recapitalization 
aircraft is fielded?
    General Harris. The Air Force will continue to assess E-8C service 
life, operational availability, and sustainment cots increases in 
conjunction with the JSTARS Recap fielding schedule to determine how 
and when to phase out the legacy fleet. Air Force senior leaders will 
brief potentional options to the Congressional Defense Committees as 
directed in the FY17 NDAA and Appropriations Act. Recapitalizing the E-
8C fleet on a commercial derivative aircraft with an enhanced radar, 
modern battle management command and control suite, and robust 
communications is an available option to maintain the current Ground 
Moving Target Indicator capability. If a gap is unavoidable, the Air 
Force will consider all possible options to provide a similar capacity.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Can you outline the additional capabilities that would 
be provided to the Navy by continued Block III advances to the F/A-18 
Super Hornet and describe how these upgrades will benefit the Carrier 
Air Wing?
    Admiral Grosklags. As the primary Carrier Air Wing (CVW) weapons 
platform, the F/A-18 Super Hornet is complementary to the capabilities 
of the F-35 and E-2D and will optimize the capacity of the CVW of the 
future. The Block III configuration specifically increases F/A-18 
situational awareness, aircraft survivability and extends its range. 
Specific advancements increase battlespace awareness, range, 
survivability and lethality:
    --Active Electronically Scanned Array (AESA) radar upgrades, 
Satellite Communications (SATCOM) and Infrared Search and Track 
(IRST)--improves lethality.
    --New aircrew display--battlespace awareness
    --New Digital Targeting Processing Network (DTP-N) controller and 
Tactical Targeting Network Technology (TTNT) card--advances computing, 
high speed network transfer and battlespace awareness.
    --Conformal Fuel Tanks (CFTs)--increases range while reducing 
aircraft signature and increases lethality by maximizing Super Hornet 
weapons capacity.
    --Integrated Defensive Electronic Counter Measures (IDECM) Block IV 
Suite--increases aircraft survivability.
    F/A-18E/F Block III will be delivered with a 9K hour frame--keeps 
these assets on the flight line and precludes the need for a costly 
Service Life Extension Program (SLEP).
    Ms. Tsongas. Can you outline the additional capabilities that would 
be provided to the Navy by continued Block III advances to the F/A-18 
Super Hornet and describe how these upgrades will benefit the Carrier 
Air Wing?
    General Harris. The Air Force refers to the Navy.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. GAETZ
    Mr. Gaetz. Does the U.S. Air Force place strategic importance on 
the Block Four capability of the F-35?
    General Bunch and General Harris. Yes, Block 4 is very important. 
The Air Force cannot emphasize enough how important it is that we fully 
fund Block 4 to prevent delaying required capabilities for American and 
Coalition warfighters, including integration of additional weapons and 
upgrades to mission systems as the electronic warfare system, data link 
systems, and radar that will ensure operational advantage against the 
emerging 2025 threat.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. The information needs of the joint force will require 
that every platform is a sensor, especially those designed to operate 
in contested or denied areas. The F-35 will be deployed in large 
numbers and will have one of the most capable suites of sensors ever 
put on an airplane. What current efforts has your service undertaken to 
ensure the joint force can access and integrate the data collected by 
F-35 sensors?
    Admiral Grosklags. The Navy and Marine Corps Team is working on 
solutions to ensure in-flight sensor data is transmitted to the carrier 
intelligence centers via appropriate radio datalinks. Post-flight 
sensor data will be recorded for download, then transmitted throughout 
Navy ship networks and Distributed Common Ground System (DCGS) for 
processing, exploitation, and dissemination analysis to the Joint 
Force. Because F-35 post-flight mission products are classified at the 
SAP level, the Team is pursuing the implementation of a cross-domain 
solution to move the appropriate information across classification 
boundaries. The Link-16 network will be the foundation of the tactical 
airborne data links for decades, and the primary means by which the F-
35 will be integrated with other naval aviation assets (E-2, F/A-18, 
EA-18, etc) in the NIFC-CA kill chain. Link-16's value is breadth of 
deployment across the multi-national force, but it is not adequate for 
sharing all data in all scenarios. There is still a need for 
specialized waveforms and networks which may require a gateway solution 
for transfer and fusion of data (MADL, TTNT, and CEC).
    Mr. Bacon. The information needs of the joint force will require 
that every platform is a sensor, especially those designed to operate 
in contested or denied areas. The F-35 will be deployed in large 
numbers and will have one of the most capable suites of sensors ever 
put on an airplane. What current efforts has your service undertaken to 
ensure the joint force can access and integrate the data collected by 
F-35 sensors?
    Admiral Miller. The F-35's sensor fusion solution and data sharing 
capabilities are focused on providing the interoperability required by 
the warfighter in support of the execution of the mission at the 
tactical level. The program is currently planning increased capability 
in these areas as part of Follow-on Modernization, to include Tactical 
Data Recording capability, which will allow the warfighter to record 
and use this data for ``next day'' missions. While there is no current 
capability or approved operational requirement to contribute to the 
Process, Exploit, Dissemination (PED) architecture, the Services 
continue to investigate future opportunities to include this capability 
in future F-35 upgrades.
    Mr. Bacon. Given the current threat environment, can you explain 
the USAF's intent to drastically reduce development and procurement 
funding for the F-15 C/D EPAWSS self-protection upgrade?
    General Bunch and General Harris. The F-15E has more service life 
remaining that the F-15C/D, and the Air Force plans F-15E sustainment 
into the 2040s. The F-15E also operates in air-to-surface environments 
where electronic warfare self-protection is an absolute must. The Air 
Force is funding procurement of Eagle Passive Active Warning 
Survivability System (EPAWSS) for the F-15E based on the projected 
military utility and return on investment. Current uncertainty 
regarding service life extension for the F-15C/D resulted in the 
reduction of F-15C/D EPAWSS procurement funding.
    The Air Force is fully funding the development of EPAWSS on both 
the F-15C/D and the F-15E. This is risk mitigation to maximize 
flexibility for future structure decisions. The FY18 PB fully funds 
development (R&D) of EPAWSS Increment 1, which can be used across 
several platforms.
    Mr. Bacon. The E-8 JSTARS remains in critical demand by Combatant 
Commanders around the world. What is the manpower and equipment cost 
required to establish standing E-8 forward operating locations in 
Europe and the Pacific, like we have done successful for decades with 
the E-3 AWACS and the RC-135 programs?
    General Bunch and General Harris. The Air Force has not conducted a 
full cost analysis for these two locations. However, initial analysis 
indicates a rough estimate for costs to establish two JSTARS FOLs would 
include initial upfront costs of approximately $200M (MILCON and mx 
equipment) and annual combined sustainment costs of approximately $50M 
(O&M, manpower, and annual TDY/Transportation costs at both locations. 
These values are very rough but demonstrate the significant upfront 
costs required to execute. Costs aside, Air Force would find it 
extremely difficult to execute from an operations perspective because 
of the low Aircraft Availability rates driven by increased Primary 
Depot Maintenance backlogs.
    The AF understands the value of a continuing presence of JSTARS in 
multiple theaters and continues to use the GFMAP to respond to 
Combatant Commanders' highest priority requirements.
    Mr. Bacon. The information needs of the joint force will require 
that every platform is a sensor, especially those designed to operate 
in contested or denied areas. The F-35 will be deployed in large 
numbers and will have one of the most capable suites of sensors ever 
put on an airplane. What current efforts has your service undertaken to 
ensure the joint force can access and integrate the data collected by 
F-35 sensors?
    General Bunch and General Harris. The F-35's sensor fusion solution 
and data sharing capabilities are focused on providing the 
interoperability required by the warfighter in support of the execution 
of the mission at the tactical level. The program is currently planning 
increased capability in these areas as part of Follow-on Modernization, 
to include Tactical Data Recording capability, which will allow the 
warfighter to record and use this data for ``next day'' missions. While 
there is no current capability or approved operational requirement to 
contribute to the Process, Exploit, Dissemination (PED) architecture, 
the Services continue to investigate future opportunities to include 
this capability in future F-35 upgrades.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
